OIG Audit Report GR-30-96-008

United States Marshals Service Intergovernmental Service Agreement for Detention Facilities with Plymouth County, Massachusetts
Audit Report GR-30-96-008
April 1996
Office of the Inspector General


Executive Summary


The Office  of the Inspector General (OIG), Audit Division, has completed an audit of the  Intergovernmental Service Agreement (IGA) between the United States Marshals Service (USMS) and the County of Plymouth  (contractor), Massachusetts.  During the audit period (July 1994 through  June 1995 – Fiscal Year 1995), the contractor billed the USMS for 82,436 jail  days at $80.76 per day, for a total of $6.7 million.  The IGA was signed in April 1991 and was in  effect during the audit period.   Additional audit scope, methodology and background information appears  in APPENDIX II.
 We reviewed the IGA between the  contractor and the USMS to provide detention space at the jail for federal  prisoners. We analyzed jail-day billings  to determine if the amounts claimed were accurate and that the day rate  corresponded to the rate as stated in the IGA.   We performed tests of selected FY 1995 costs to determine if the costs  were allowable and were adequately supported.
Based on our review, we determined that:

The  base for the contractor’s FY 1995 daily jail rate included $8,864,175 of  unallowable and/or unallocable costs and a carryforward of FY 1994 surplus  revenues totaling $1,792,320 that totaled $10,656,495. This resulted in excess billings totaling  $1,996,600 to the USMS during FY 1995.
No  material deficiencies were identified in the following areas:  accuracy, completeness, and adequacy of  accounting documentation; internal management, administrative, and financial  controls; control over government furnished property; and accuracy of reports.




 




Return to OIG Home Page